                                                                    public announcements of audits I Appendix E I july 21, 2010     1




PUBLIC ANNOUNCEMENTS OF                                         GAO3
                                                                Ongoing Audits
AUDITS                                                          •	 CPP Approval and Return Process: Review Treasury’s
This appendix provides an announcement of new and ongoing          process as well as regulators’ processes for approval, as well
public audits by the agencies listed below. See Appendix G:        as Treasury and regulators’ application of criteria for repay-
“Key Oversight Reports and Testimonies” for a listing of           ment. Probable July/August issuance.
published reports. Italics style indicates narrative taken      •	 Partnering with SIGTARP on oversight of government
verbatim from the agencies’ responses to SIGTARP’s data call.      management of formerly private sector entities. Likely July
•	 U.S. Department of the Treasury Office of the Inspector         issuance.
                                                                •	 Review of SCAP. Likely July/August issuance.
   General (“Treasury OIG”)
                                                                •	 TARP after two years will provide an overview of the evolu-
•	 Federal Reserve Board Office of Inspector General
                                                                   tion and status of the programs with discussion of possible
   (“Federal Reserve OIG”)
                                                                   effectiveness indicators. Late September/early October.
•	 Government Accountability Office (“GAO”)
•	 Federal Deposit Insurance Corporation Office of the
                                                                FDIC OIG4
   Inspector General (“FDIC OIG”)
                                                                 Ongoing Audits
                                                                •	 Material Loss Review of United Commercial Bank (UCB),
Treasury OIG1                                                      San Francisco, CA. One of the objectives of the review is to
 Ongoing Audits                                                    ascertain why UCB’s problems resulted in a material loss to
•	 None                                                            the Deposit Insurance Fund (DIF).

Federal Reserve OIG2                                            Endnotes
Ongoing Audits                                                  	 Treasury OIG, response to SIGTARP data call, 7/9/2010.
                                                                1


•	 Review of the Federal Reserve’s Lending Facilities and       	 Federal Reserve OIG, response to SIGTARP data call, 6/30/2010.
                                                                2


   Special Programs.                                            	 GAO, response to SIGTARP data call, 6/30/2010.
                                                                3


                                                                	 FDCI OIG, response to SIGTARP data call, 6/30/2010.
                                                                4
